No

mu

•«> la

In the

. -i

•

Supreme Court of the United States
HELGA SUAREZ CLARK

FILED
JUL 1 4 21)20

Petitioner
v.

,Kory
PERU REPUBLIC et al.(Carlos CASTELLON CUEVA,Arturo QUISPE
BUSTAMANTE,
LAZO
CUERVO,Gamero
ALVAREZ
BASAURI,R.CHUQUIHUAYTA
LIAS
Emilio
QUILLAHUAMAN,police under Jhon BECERRA DIAZ,Wilder PEDROZA RUIZ,
YLLA,Minoho,CALLANAUPA
PEREZ,Hugo MINAYA
Julio
Cesar TELLO
CHIRINOS,PEREZ GARCIA,ALVAREZ GARCI,Julio ARCE DE LA TORRE
BUENO,Lisbeth AFAN QUISPE,Luis RAMIREZ ARCAYA,Javier Freddy ALVAREZ,other
police see reports exhibits,Maria Del Carmen VEREAU ALVAREZ,Nilo PARAVICINO
ALARCON,Gisela VENERO DE MONTEAGUDO,Walter BECERRA HUANACO,Victor
FARFAN MERCADO,Miguel A.CASTELO ANDIA,Ignacio ORTEGA MATEO,Julio
CesarALVARADO VILLENA,Rodolfo HUAMAN FLORES and Etel MARQUINA
RODRIGUEZ,Felix TUPAYACHI PACHECO,Nelly CALDERON NAVARRO,Miguel
A.CACERES
CHAVEZ,
Carlos
A.PEREZ
CHAVEZ,Julio
C.
VILLENA
ALVARADO,Magaly ROJAS ESPINOZA,Jose M.MAYORGA ZARATE,Tamara
T.CATACORA JARA , Alberto PEREZ CARDENAS,Gary J.ORTIZ AGUILAR,Luis
PAREDES CUSI,Nataly UGARTE MOLINA,Gladys QUISPE,Evelyne M.MAURICIO
APARICIO,F.ALMANZA ALTAMIRANO,Elisabeth ORTIZ DE ORUE RODRIGUEZ
LADRON DE GUEVARA,Lucy CHAUPIS VALVERDE, Maria T. YNONAN
VILLANUEVA and Maria SUAREZ ARIAS,judge NINO DE GUZMAN,Jose ROCA
MENDOZA, all District and national attorneys) in caselaw reports (exh.),judges names in
reports(exh.,Mariangeles ROMERO GUEVARA,Graciela ROMERO) QUISPE, Jorge
CHACON
MENDOZA,Richard
ALARCON)
URRUTIA,Rocio
ZEVALLOS
HUAYHUA),Gisela VARGAS CAJAHUANCA,Doris Luz BLAS RAMIREZ,Milagros
ANDERSON, Calixto COANQUI QUISPE,ALMENARA BRYSON,HUAMANI
LLAMAS,ESTRELLA CAMA,CALDERON CASTILLO,CALDERON PUERTAS,Peru
ARROYO,GONZALES
LANDA
court,Cesar
Civil
Supreme
OJEDA,BARDELLI,LARTIRIGOYEN,ALVA ORLANDINI,GARCIA TOMA,BLUME)
FORTINI, LEDESMA NUNEZ,ESPINOSA SALDANA BARRERA,FemandoCALLE
CRUZ,Ernesto
CALLIRGOS,ETO
HAYEN,BEAUMONT
ALVAREZ,MIRANDA,MIRANDA CANALES,SARDON DE TABOADA,CarlosMESSIA)
RAMIREZ,Juan VERGARA GOTELLI,Peru constitutional tribunal,All defendants covered
up by Republic Justice in reports complaints,All c/oEmbajador Hugo DE ZELA MARTINEZ)
Embassy of Peru,1700Massachusetts Ave NW

)

Washington DC20036-1903,tel(202)8339860,8339869

)

Di gi tal dipl om acy@embassvofperu.us.hdezela@rree. gob .pel

)

Jens MODVIG,Sebastien TOUZE,Carla EDELENBOS,Dominique BUSH,

■*.

Karen MOSOTI,Carmen RUEDA

-l-

C/O UN,CAT,OHCHR,palais Wilson

)

52,rue des Paquis,1201 Geneve Switzerland

)

Tel 041 588 78 56,cat@ohchr.org

)

Marta TAVARES,Victor MADRIGAL,Christina CERNA,Ernesto ALVAREZ
Commission
Inter-American
OrganizationofAmericanStates
1889 F StNW ,Washington, D.C, 20006

Human

on

Telephone: 1 (202) 370 9000, E-mail: cidhoea@oas.org

Rights)
")

)

1

M.P.DILLON,Karen MOSOTI
IntemationalCriminalC6urt,POBOX19519)
2500CM,TheHague)
TheNetherlands,otp.informationdesk@icc-cpi.int)
+31 (0) 70 515 80 71
Respondents

PETITION FOR A WRIT OF CERTIORARI

Helga G.SUAREZ CLARK

June 14 2020

21-F,Psje Rosales
Urb.Mariscal Gamarra 2da etapa
Cusco 08003 PERU
suarezhelga@vahoo.com, tel. 01151992658883

QUESTIONS PRESENTED
<■

1

USCA(case 20-7001) erroneously denied my motion for court appointed counsel,

aledging case did not have merits despite chief judge Me Mahon NYSD(18-01740)judged it
had merits and transferred it to DC because of venue.

-11-

2 USCA(3d par.april 15 2020 judgment, erroneously holds” Appellant’s complaint
failed to set forth "a short and plain statement” of the claims showing she is entitled to relief
Fed. R. Civ. P. 8(a) ”, indeed,I did enclose in original complaint the statement required(as
stated on p.7 of brief) “4. Likewise,on pp.14 to.20 of my pro se complaint, I stated “ V.
SHORT AND PLAIN STA TEMENT OF CLAIMS AGAINST DEFENDANTS”, Indeed,on pp.
14 to 20,parr.l3 on,of my civil action in district court 19-3349,1 had enclosed a “short and
plain statement of claims’’(see Appendix C,p.l4 of original complaint)

3

USCA did not grant my request to file an amended complaint thus contradicting

itself since I was reproached by USCA in last year same case 18-7182 appeal”57ie didn’t ask
nor was granted ,district judge for leave to file an amended complaint

court stated the

judge had erred in so doing (to cure electronically actual district court case formal defects
would be faster,save trees and cost me(I am in forma pauperis) another $200 in international
mailing of a new original complaint if I am dismissed; thus USCA should have asked district
judge CHUTKAN to let me amend my supposedly formally defective complaint,before
dismissing it.
TABLE OF CONTENTS
QUESTIONS PRESENTED

i,ii

INTRODUCTION

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1
2-4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

4

CONCLUSION

4

INDEX TO APPENDICES
APPENDIX A:Decisions of USCA for DC Circuit:
- Judgment,H.S. Clark v.Peru Republic et al.,No 20-7001 (april 15 2020)
-Judgment,”

,No 18-7182(april 2 2020)

-2 orders denial june 3 2020:petitions for rehearing,rehearing banc,No20-7001
APPENDIX B: Decisions of district court,case 19-3349

-1-

-Memorandum,OrderDC District court,H.S Clark v.Peru Republic,Nol9-3349(n 2020)
APPENDIX C: Original complaint 19-3349,p.14,Short and plain statement of claim.
INTRODUCTION
Helga Suarez Clark respectfully petitions for a writ of certiorari to reverse the
judgment of the United States Court of Appeals for the District of Columbia in this case.
JURISDICTION
The date on which the United States Court of Appeals decided my case was april 15
2020.A petition for rehearing and rehearing en banc and to vacate district court order was
denied on june 3 2020(see appendix)and I moved to stay mandate withn 7 days of june 3.
The jurisdiction of this court is mle 10 a) of this court;28 U.S.C. s.1254 al.(l)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1

Nullum crimen sine lege:this case has been dismissed despite it proves torture

and terrorism, thus granting impunity(Antiterrorism and effective death penalty actjexception
to immunity.Foreign Sovereign Immunities Act 28 U.A.C.S.1605A (hereinafter”FSLA”)
2

Rule 10 al.l lit a)of this Court ~

3

The lower courts have abused their discretion and due process of the 14th

amendment, overlooked and misapprehended (FRAP 40)aII the points of law I raised in
my appeal.
4

-3.Res judicata and estoppel.

STATEMENT OF THE CASE
1

-2-

Nullum crimen sine lege:this case has been dismissed despite it proves torture

and terrorism, thus granting impunity(Antiterrorism and effective death penalty act)exception
to immnnity.Foreign Sovereign Immunities Act 28 U.A.C.S.1605A (hereinafter”FSIA”)for
wrongful tentative of extrajudicial killing ,torture,extreme mental anguish suffering , personal
injury,hostage taking ,economic loss,and taking of property in violation of international law
and related torts .deprivation of rights under color of law,denial of due process and equal
protection of the law:this section holds 2)Claim heard:The court shall hear a claim under this
section if (A)(i)(l)the foreign state was designated as a state sponsor of terrorism or was so
designated as a result of such act,(ii)see in Roeder v.islamic Republic of Iran 195
F.Supp.2dl40,159-161 DDC2002.2 TVPA (Torture victim protection act),tort(440 civil rights
abuses,360 other personal injuryjarbitrary detention .reckless endangerment,deprivation of
rights under color of law,slander,conspiracy against the United
2

Rule 10 al.l lit alof this Court:” (a) a United States court of appeals has

entered a decision in conflict with the decision of another United States court of appeals on
the same important matter; has decided an important federal question in a way that conflicts
with a decision by a state court of last resort; or has so far departed from the accepted and
usual course of judicial proceedings, or sanctioned such a departure by a lower court, as to
call for an exercise of this Court’s supervisory power;
3

The lower courts have abused their discretion and due process of the 14th

amendment overlooked and misapprehended (FRAP 40)all the points of law I raised in
my appeal,and the following situations exist:
-l.a material factual or legal matter was overlooked in the decision: in
the decision,third paragraph ofjudgment.it holds” Appellant’s complaint failed to set forth “a
short and plain statement” of the claims showing she is entitled to relief. Fed. R. Civ. P. 8(a) .

o-

Neverthelessfin p.7 of my brief, I wrote “4 Likewise,on pp,14,til p.20, I stated “ V. SHORT
AND PLAIN STATEMENT OF CLAIMS AGAINST DEFENDANTS (A 25 PP. AMENDED
COMPLAINT,AS RESUME,MAY BE FOUND ON DOCKET DC

CIRCUIT 18

1460,FILING 12 17 2018)”, Indeed,on pp.14 to 20,parr.l3 on,of my civil action in district
court 19-3349,1 had enclosed a “short and plain statement of claims”so due process(14th
amendment)was violated and District Court abused its discretion(see appendix C).
-2.The opinion is in conflict with this court and the conflict is not addressed in
the opinion: by attached order USCA april 2 2019 in USCA case 19-3349, court stated I and
or the judge had erred by “Appellant did not request, nor was she granted, leave to file a third
amended complaint”. In “SUMMARY OF ARGUMENTS”^. 19 of my brief,I wrote “7.Judge
should have given me an option to make an amended complaint,better more,with court
appointed counsel, instead of dismissing the whole complaint”. Therefore, this court would
contradict itself,by on one hand,last year in case 18 1782, commenting it would have been
opportune for me to request leave to file a third amended complaint,before letting the judge in
district 18 1782 dismiss my action,then on the other hand,in my refiling,not granting my
request to ask the district judge permit to file an amended complaint.
-3.Res judicata and estoppel:The proceeding involves one or more questions
of exceptional importance: -1.Erroneously I was denied court appointed counsel because my
case doesnt have likelihood of success on its merits:if my case didnt have merits,Chief Judge
Colleen Me Mahon in 18-1740 NYSD wouldn t have admitted it and transferred it; I would
benefit of counsel,since it is not first time I am rejected because of a formality as I am not
attorney. Us supreme court as well opinated in 464 U.S. 154 (104 S.Ct. 568, 78 L.Ed.2d 37
UNITED STATES, Petitioner v. Sergio Elejar MENDOZA.No. 82-849.Argued: Nov. 2,
1983.Decided: Jan. 10, 1984),prohibits violate res judicata and 14th amendment collateral

-4estoppel.

It is cruel and illegal to deny my motion for court appointed counsel since I attach

medical documents I am disabled in an inadequate wheelchair because of the crimes.
REASONS FOR GRANTING THE WRIT
1.Chief Judge Mahon NYSD already admitted my case upon merits as such (NYSD 18
1740)and transferred it so there is little sense the lower courts violate res judicata to dismiss it
again as well as a court appointed counsel aledging I didn’t prove my case had merits.
2.The lower courts keep erring aledging I didn’t comply with FRCP 8a)by not including a
short and plain statement of the claims,since it was on p 14 of original complaint.
3.Lower courts keep asking I shorten my complaint despite I mentionned I am also suing FBI
and Department of state for depriving my of my civil rights refusing to investigate crimes and
put Peru on list of terrorist states or condemn them for torture,thus,I need to make the judge
discover enclosing my own investigation,which requires extensive exhibits and facts,to prove
claim can be heard for terrorism exception to FSIA.
4.Appeals court contradicted itself by not granting my request for leave to file an amended
complaint instead of letting the district court dismiss,since it is only about formality,because
in same facts,appeal court(appeal 18 7182)raised as error that neither me nor the district
judge,asked a 3d amended complaint be filed..
CONCLUSION
I beg this Court for relief to accept my original complaint 19 3349 ,if not,allow me
leave to file an amended complaint.

Helga Suarez Clark

